OIG Investigative Reports, Tampa, FL., December 10, 2010 -A Former Polk County School Board Administrator and Executive Vice President of M.M. Parrish Construction Co. Indicted for Conspiracy to Commit Bribery and Robbery
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Robert E. O'Neil
Middle District of Florida
FOR IMMEDIATE RELEASE
December 10, 2010
CONTACT: AMY FILJONES
(813) 274-6171
FAX: (813) 274-6300
A FORMER POLK COUNTY SCHOOL BOARD ADMINISTRATOR AND
EXECUTIVE VICE PRESIDENT OF M.M. PARRISH CONSTRUCTION CO.
INDICTED FOR CONSPIRACY TO COMMIT BRIBERY AND BRIBERY
Tampa, Florida - United States Attorney Robert E. O'Neill announces the unsealing of a grand jury indictment charging Robert L. Williams, 67, of Winter Haven, Florida; Lloyd Whann, 50, of Newberry, Florida; and M.M. Parrish Construction Co. of Gainesville, Florida with conspiracy to commit bribery and substantive bribery offenses. If convicted, Williams and Whann face a maximum penalty of up to ten (10) years in federal prison as to each bribery count and up to five (5) years on the conspiracy charge. Williams and Whann also face a fine of up to $250,000 on each count of conviction, and . M.M. Parrish Construction Co. may be fined up to $500,000 on each count of conviction. The fine on each count may be increased to twice the gain derived from the crime or twice the loss suffered by the victims of the crime, if either of those amounts is greater than the statutory maximum fine.
According to the indictment, the School Board of Polk County administered the activities of the Polk County School District, including public school construction activities, through a Superintendent and a number of assistant superintendents, including Defendant Robert L. Williams, who was the Assistant Superintendent of Facilities and Operations. It is alleged that Williams occupied an influential position in the process of awarding school
construction contracts and he corruptly solicited and received things of value from Defendants Whann and M.M. Parrish Construction Co. Those things include home restorations and repairs; hunting, fishing, and vacation trips; and a Beretta shotgun.
The indictment also alleges that Defendants Whann and M.M. Parrish corruptly conferred substantial things of value on Williams with the intent to influence the exercise of Williams' decision making authority and to reward Williams for exercising his authority in favor of Parrish. The indictment alleges that M.M. Parrish received more than $100 million worth of construction business from Polk County. Lloyd Whann, the Executive Vice President and a major Parrish shareholder, is alleged to have been directly involved in corruptly providing things of value to Williams.
An indictment is merely a formal charge that a defendant has committed a violation of the federal criminal laws, and every defendant is presumed innocent unless, and until, proven guilty.
This case was investigated by the Federal Bureau of Investigation, the Florida Department of Law Enforcement, and the U.S. Department of Education Office of Inspector General. It will be prosecuted by Assistant United States Attorney Robert Monk in conjunction with United States Department of Justice Antitrust Division counsel from the Atlanta Field Office.
Printable view
Last Modified: 12/14/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov